                      ort




   MANAGEMENT OF CONTRACT WAIVERS AND DEVIATIONS
           FOR THE TRIDENT II MISSILE SYSTEM



Report No. 98-197                         September 2, 1998




              Office of the Inspector General
                  Department of Defense
Additional    Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 6048937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, home page at: WWW.DODIG.OSD.MIL.

Suggestions   for Future Audits

To suggest ideas for or to request future audits, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate    at
(703) 6048908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to HotIine@DODIG.OSD.MIL;          OI
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
The identity of each writer and caller is fully protected.
                                        INSPECTOR    GENERAL
                                       DEPARTMENT    OF DEFENSE
                                         400 ARMY NAVY DRIVE
                                       ARLINGTON. VIRGINIA 22202




                                                                        September   2, 1998


MEMORANDUM          FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                        MANAGEMENT    AND COMPTROLLER)

SUBJECT:    Audit Report on Management of Contract Waivers and Deviations           for the
            Trident II Missile System (Report No. 98-197)


        We are providing this audit report for review and comment.     This report is the
third in a series of reports resulting from our review of contract waivers and deviations
for Defense systems.

        Management did not comment on a draft of this report. DOD Directive 7650.3
requires that all recommendations be resolved promptly. Therefore, we request
management to provide comments on the report and its recommendations   by
October 2, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. John E. Meling at (703) 604-9091 (DSN 664-9091) or
Mr. Douglas P. Neville at (703) 604-9076 (DSN 664-9076). See Appendix E for the
report distribution. The audit team members are listed inside the back cover.




                                          David K. Steensma
                                   Deputy Assistant Inspector General
                                             for Auditing
                           Office of the Inspector General, DOD
Report No. 98-197                                                                      September 2, 1998
    (Project No. 6AE-0033.02)

           Management           of Contract Waivers and Deviations for the
                                  Trident II Missile System

                                      Executive Summary

Introduction. This report is the third in a series addressing the management          of
waivers and deviations for Defense systems. The first report, No. 96-221, “The
Avenger Forward-Looking        Infra-Red System,” September 16, 1996, addresses waivers
on the Army Avenger system. The second report, No. 97-104, “Waivers and
Deviations for the C-17 Aircraft,” March 6, 1997, addresses waivers on the Air Force
C-17 aircraft. This report addresses waivers and deviations for the Trident II Missile
System (missile and reentry body components).         The Trident II Missile System is a
three stage, solid-propellant,   inertially guided fleet ballistic missile with a range of
more than 4,000 nautical miles. The Navy first deployed the Trident II Missile System
in 1990 and plans to deploy it beyond 2020.

Audit Objectives. The primary audit objective was to evaluate the management of
contract waivers and deviations for Defense systems. Specifically, we assessed whether
procedures for reviewing, approving, and obtaining equitable consideration for major
waivers and deviations were adequately and consistently applied. We also reviewed the
implementation of management controls applicable to contract waivers and deviations.
The Trident II Missile System is one of seven Defense systems reviewed in our ongoing
audit.

Audit Results. The Strategic Systems Programs Office adequately and consistently
applied the process for reviewing and approving major’ waivers and deviations on
contracts for Trident II missile and reentry body components.     However, the Program
Office did not perform cost and price analyses to determine the adequacy of
consideration obtained for the approval of major waivers and deviations.     As a
consequence, the Program Office’s methodology for obtaining consideration for more
than 300 major waivers and deviations approved since FY 1984 did not ensure that the
consideration that the Government received was appropriate.      Also, the waiver and
deviation incentive-fee provision in the cost-plus-incentive-fee contracts did not
effectively motivate the contractor to annually reduce the numbers of waivers and
deviations requested. See Part I for details.

The management controls were effective in that we identified no material management
control weakness. See Appendix A for details of the review of the management control
program.




l The term “major”   means items that negatively   impact safety, coordination,   function,   interchangeability,
or expected life.
Summary of Recommendation.          We recommend that the Director, Strategic Systems
Programs Office, direct the procuring contracting officer on future contracts for
Trident II missile and reentry body components to discontinue the use of the incentive-
fee clause for waivers and deviations and to perform cost and price analyses to
negotiate and obtain appropriate consideration for accepting major waivers and
deviations.

Management Comments. Management did not comment on the draft report issued on
June 25, 1998; therefore, we request the Director, Strategic Systems Programs Office,
to comment on this report by October 2, 1998.
Table of Contents

Executive Summary                                                     i

Part I - Audit Results

      Audit Background                                               2
      Audit Objectives                                               2
      Management of Waivers and Deviations                           3

Part II - Additional Information

      Appendix A. Audit Process
        Scope                                                         9
        Methodology                                                  10
        Management Control Program Review                            11
      Appendix B. Summary of Prior Coverage                          12
      Appendix C. Incentive-Fee Clause Formula and Application       13
      Appendix D. Incentive Fees Earned for Waivers and Deviations   14
      Appendix E. Report Distribution                                15
Part I - Audit Results
Audit Background

     The Trident II Missile System is a three-stage, solid-propellant,     inertially guided
     fleet ballistic missile with a range of more than 4,000 nautical miles (4,600
     statute miles). The Navy designed, developed, and produced the Trident II
     Missile System to support its submarine-launched     ballistic missile weapon
     systems. The Trident II Missile System is launched by the pressure of
     expanding gas within the launch tube. When the missile attains a sufficient
     distance from the submarine, the first-stage motor ignites, the aerospike
     extends, and the boost stage begins. Within about 2 minutes, after the third
     stage motor kicks in, the missile is traveling in excess of 20,000 feet (6,096
     meters) per second.

     The Navy first deployed the Trident II Missile System in 1990 and plans to
     deploy it beyond 2020. The Navy also provides the Trident II Missile System
     to the United Kingdom which equips the missile with United Kingdom warheads
     and deploys the missile on Vanguard Class submarines.   Lockheed-Martin
     Missile and Space Company, Incorporated, Sunnyvale, California, produces the
     Trident II Missile System (missile and reentry body components).

     The Navy Strategic Systems Programs Office (Program Office) manages the
     Trident II Program. From FYs 1984 through 1997, the Program Office
     acquired 350 missiles at an estimated total cost of $13.5 billion. The Program
     Office plans to acquire another 84 missiles at an estimated total cost of
     $4.3 billion from FYs 1998 through 2007. The average cost of a Trident II
     Missile System is $38 million.


Audit Objectives

     The primary audit objective was to evaluate the management of contract waivers
     and deviations for Defense systems. Specifically, we assessed whether
     procedures for reviewing, approving, and obtaining equitable consideration for
     major waivers and deviations were adequately and consistently applied. We
     also reviewed the implementation of management controls applicable to contract
     waivers and deviations. In Appendix A, we discuss the scope and methodology
     used to accomplish the audit objective as well as management controls. In
     Appendix B, we discuss prior audit coverage.
            Management of Waivers and Deviations
            The Program Office adequately and consistently applied the process for
            reviewing and approving major waivers and deviations on contracts for
            Trident II missile and reentry body components.       However, the Program
            Office did not perform cost and price analyses to determine the adequacy
            of consideration obtained for the approval of major waivers and
            deviations. The Program Office did not perform those analyses because
            the cost-plus-incentive-fee  contracts for the missile and reentry body
            components included an incentive-fee provision as a means of obtaining
            consideration (a reduction in incentive-fee) for approved major waivers
            and deviations. That provision established a predetermined formula for
            computing Government consideration for accepting waivers and
            deviations that did not directly relate to the degraded value of the
            nonconforming materials accepted. As a consequence, the Program
            Office’s methodology for obtaining consideration for more than 300
            major waivers and deviations approved since FY 1984 did not ensure
            that the consideration that the Government received was appropriate.
            Also, the waiver and deviation inc’entive-fee provision did not effectively
            motivate the contractor to annually reduce the numbers of waivers and
            deviations requested. The contractor was not motivated because the
            incentive-fee target used for annual waiver and deviation reductions in
            the incentive-fee formula was not known and not included in the
            contracts.


Contract Waiver and Deviation Policy

    Federal Acquisition Regulation.      Federal Acquisition Regulation, subpart
    46.407, “Nonconforming      Supplies or Services,” allows the contracting officer
    to accept nonconforming supplies in the Government’s best interest.’ At the
    request of the contractor, the contracting officer can accept nonconforming
    supplies based on:

            o advice from technical experts that the item is safe to use and will
     perform its intended purpose;

            o information   regarding   the nature and extent of the nonconformance;

           o a recommendation       for acceptance or rejection with supporting
    documentation; and

            o contract adjustment    considered   appropriate,   including any adjustments
    offered by the contractor.

    The Federal Acquisition Regulation also requires the contracting officer to
    modify the contract under which nonconforming       items are accepted to provide
    for an equitable price reduction or other consideration.   The Federal Acquisition
Management   of Waivers and Deviations


      Regulation does not define “other consideration.”  For this audit, we define
      “other consideration” as compensation, services, or contract fee reduction
      negotiated between the contractor and the Government in exchange for
      accepting nonconforming goods.

      Federal Acquisition Regulation, subpart 15.805, “Proposal Analysis,” requires
      that the procuring contracting officer exercise sole responsibility for the final
      pricing decision and, as appropriate, coordinate a team of experts in such fields
      as contracting, finance, law, contract audit, packaging, quality control,
      engineering, traffic management, and contract pricing to evaluate the
      contractor’s cost proposals. The procuring contracting officer makes a cost
      analysis to evaluate the reasonableness of individual cost elements and performs
      a price analysis to ensure that the overall price offered is fair and reasonable.

      Program Office Policy. The Program Office established waiver and deviation
      policy for the Trident II Missile System in Operational Directive 40825B,
      “Strategic Weapon System Nonconforming Material Review and Waiver and
      Deviation Requests; Definitions, Classification, and Requirements,”   January 23,
      1996. The directive superseded Naval Sea Systems Command Operational
      Directive 40825A, same title, May 5, 1981, which the Program Office
      incorporated in contracts for Trident II missile and reentry body components by
      reference. The directives define the terms waiver and deviation as follows:

                 Waiver:    An affirmative documented administrative    action . . . to
                 accept SSP [Strategic Systems Programs] cognizant items already
                 procured, produced, processed, tested, or repaired which do not meet
                 specified requirements of a contract, design disclosure requirements,
                 or other applicable documentation but which are considered acceptable
                 to the government for use.

                 Deviation: An affirmative documented administrative        action . . . to
                 authorize, prior to the procurement, production, processing, or testing
                 of SSP [Strategic Systems Programs] cognizant items, the departure
                 from specified     requirements    of a contract,     design     disclosure
                 requirements,    or other applicable   documentation.        A deviation
                 authorizes the subsequent acceptance of the designated items.              A
                 deviation is a temporary expedient and is limited to a specified time
                 period or number of units.

     The directives divide waivers and deviations into four categories; categories A
     and B represent major waivers and deviations, and categories C and D represent
     minor waivers and deviations.      Category A waivers and deviations are defined
     as items that negatively impact safety, coordination, function (affecting
     minimum performance requirements), or interchangeability        (requiring selective
     fit). Category B waivers and deviations are defined as items that negatively
     impact function (resulting in a degradation of performance), interchangeability
     (not requiring selective fit), or the expected life of the item. In return for
     accepting nonconforming materials (category A and B major waivers and
     deviations), the directives require the procuring contracting officer to negotiate
     equitable consideration.
                                              Management   of Waivers and Deviations


Implementation        of Contract Waiver and Deviation Policy

     The Program Office adequately and consistently applied its process for
     reviewing and approving major waivers and deviations on contracts for the
     Trident II missile and reentry body components. However, the Program Office
     did not perform cost and price analyses to determine the adequacy of
     consideration obtained for the approval of major waivers and deviations.
     Instead, the Program Office used an incentive-fee provision in cost-plus-
     incentive-fee contracts to obtain consideration (a reduction in incentive-fee) for
     accepting nonconforming materials.

     Since FY 1984, the Program Office has included a waiver-and-deviation-
     incentive-fee provision in annual cost-plus-incentive-fee contracts for Trident II
     missile and reentry body components. The incentive-fee provisions established
     a predetermined formula for computing Government consideration to be
     obtained for approving waivers and deviations. Annually, the contracting
     officer awards the contractor an incentive fee when the weighted value of
     waivers and deviations declines from that of the weighted value of waivers and
     deviations for the previous year. See Appendix C for details on the application
     of the incentive-fee clause formula. The Program Office stated that the purpose
     of the clause was to motivate the contractor to request fewer contract waivers
     and deviations each year.

     The Program Office plans to continue awarding cost-plus-incentive-fee contracts
     for the missile and reentry body components throughout the production life of
     the missile, that is, through FY 2006. Further, the Program Office stated that
     the contracts will also contain the same incentive-fee clause to obtain
     consideration for the Government to approve major waivers and deviations.


Consideration        Obtained For Waivers and Deviations

     Consideration    Obtained. FY 1991 was the latest year in which the Program
     Office finalized the incentive-fee determination and payment for waivers and
     deviations on contracts for Trident II missile and reentry body components.
     The contract specified that the contractor could earn a maximum incentive fee of
     $443,336 through application of the incentive-fee formula for waivers and
     deviations. By applying the formula in Appendix C, the procuring contracting
     officer determined that the contractor earned an incentive fee of $278,637 out of
     a potential incentive fee of $443,336. From FY 1990 through FY 1991, the
     contractor reduced the number of major waivers and deviations requested from
     11 to 6. However, the amount of the incentive fee unearned ($164,699) was
     not based on a direct relationship to the degraded value of the nonconforming
     material as determined through the performance of cost and price analyses. For
     FYs 1984 through 1991, the contractor earned more than $2.7 million in
     incentive fees as a result of the contractor annually reducing the number of
     waivers and deviations. The Program Office approved more than 300 major
     waivers and deviations during that period. Appendix D provides a breakout of
     incentive fees that the contractor earned and did not earn for FYs 1984 through
     1991.

                                          5
Management   of Waivers and Deviations


      The administrative contracting officer did not request technical personnel to
      perform an assessment of the amount of consideration that the Government
      should receive in return for accepting nonconforming materials because of the
      contract incentive-fee clause for waivers and deviations. When questioned,
      Program Office managers were unable to explain how the reduction in incentive
      fee earned equated to appropriate (fair and reasonable) consideration for the
      Government accepting nonconforming materials.

      Major Waivers and Deviations Given Equal Value.            Application of the
      formula in Appendix C resulted in all major waivers and deviations, within a
      given category, being given the same weight or value annually. For example,
      the Program Office approved 11 category B waivers in FY 1990, which
      included waivers for such items as nose fairings and (missile) equipment
      sections. Of the 11 waivers, 3 waivers involved degraded nose fairings. In one
      case, the disparity impacted the function of the nose fairing. In the other two
      cases, the disparities impacted the interchangeability of the nose fairings. In
      most probability, the Program Office performance of a cost and price analysis
      would have shown that the degraded value was different for the 11 waivers
      approved in FY 1990. In our opinion, the contract should provide a greater
      amount of consideration for major waivers and deviations that involve items
      with a greater relative unit price, or a greater deficiency, than those with a
      lesser value or deficiency. Also, as the program matures, the number of
      waivers and deviations would normally be expected to decline.

      Adequacy of Consideration     Obtained. Because the Program Office did not
      perform a cost and price analysis to determine the adequacy of consideration
      obtained for the approval of major waivers and deviations, the Program Office
      could not provide assurance that its methodology for obtaining consideration for
      more than 300 major waivers and deviations approved since FY 1984 was fair
      and reasonable.


Use of Waivers and Deviations Incentive-Fee                   Clause as a
Contractor Motivator

      The procuring contracting officer for the Trident II missile and reentry body
      components stated that the Program Office used the contract waivers and
      deviations incentive-fee clause to motivate the contractor to request fewer
      waivers and deviations each year. The methodology was not effective because,
      at the time the contract was awarded, the Program Office had not computed the
      incentive-fee targets used (the number of waivers and deviations approved the
      previous year). As structured, the incentive-fee formula bases the amount of
      fee that the contractor can earn on reducing the number of major waivers and
      deviations as compared with the previous year. For the incentive-fee clause
      formula to function as a contractor motivator, the contractor would need to
      know the number of waivers and deviations (the target amount) that the
      Program Office accepted the previous year before beginning production on the
      current year contract, which is not happening. Specifically, the procuring
      contracting officer did not establish the target amount for each year until the


                                             6
                                            Management     of Waivers and Deviations


    contractor completed production for the previous annual contract. In the 3-year
    production contract awarded in FY 1990, for example, the procuring
    contracting officer did not establish the target amount for waivers and deviations
    until July 1996, 3 years after completion of the FY 1990 production contract.
    The situation occurred because the procuring contracting officer did not
    complete incentive-fee negotiations for the FY 1989 contract until July 1996.
    As of June 1998, the procuring contracting officer had not finalized contract
    waiver and deviation incentive-fee determinations on contracts awarded after
    FY 1991 for missile and reentry body components.

    Even though the contractor reduced the number of major waivers and deviations
    from FYs 1984 through 1991, as shown in Appendix D, it is questionable
    whether the contract incentive-fee clause had any bearing on the reduction.
    When compared with total contract values, the amount of incentive fee that the
    contractor could earn was relatively small (less than one percent) of the total
    contracts’ obligations of more than $4 billion. More importantly, the contractor
    did not know the target amount of the waivers and deviations before beginning
    production each year.


Recommendations         for Corrective Action

    We recommend that the Director, Strategic Systems Programs Office, direct the
    procuring contracting officer for Trident II missile and reentry body components
    to:

            1. Discontinue the use of the incentive-fee   clause for contract waivers
    and deviations in future production contracts.

             2. Perform cost and price analyses to negotiate and obtain equitable
    consideration for accepting major waivers and deviations on future production
    contracts.


Management      Comments Required

    The Director, Strategic Systems Programs Office did not comment on the draft
    report. We request that the Director provide comments on the final report.
Part II - Additional Information
Appendix A. Audit Process


Scope

    Work Performed. The Trident II Missile System is one of seven Defense
    systems reviewed in our ongoing audit. We conducted this audit from
    March 1996 through June 1998, and we reviewed data dated from
    November 1989 through June 1998. To accomplish the objective, we:

            o examined Strategic Systems Programs Office, Missile and Reentry
    Branch Trident II production contracts N0003-84C-0100,    NOOO3-88C-0088,
    N0003-89C-0089,     N0003-90C-0090, and NOO03-91C-0091, valued at more
    than $4 billion, with Lockheed-Martin Missiles and Space, Company,
    Incorporated, including statements of work, contract data requirements lists,
    contract line items, and related correspondence;

             o reviewed configuration management documentation,       engineering
    change proposals, requests for waivers and deviations, contract modifications,
    technical data packages, deficiency notices, system specifications, program test
    results, and Navy regulations; and

             o discussed issues relating to the management of contract waivers and
    deviations for the Trident II Missile System with program, technical, and
    contracting personnel from the Strategic Systems Programs Office and
    contractor personnel.

    Limitation to Audit Scope. We limited our audit of the Trident II Missile
    System to missile and reentry body component     contracts.

    DOD-wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Department of Defense has established 6 DOD-wide corporate level performance
    objectives and 14 goals for meeting the objectives. This report pertains to
    achievement of the following objective and goal:

    Objective: Prepare now for an uncertain future.        Goal: Pursue a focused
    modernization effort that maintains U.S. qualitative    superiority   in key war
    fighting capabilities. (DOD-~)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high-risk areas in DOD. This report provides coverage of
    the Defense Weapons Systems Acquisition high-risk area.




                                        10
                                                        Appendix   A. Audit Process


Methodology

     We conducted this program audit in accordance with auditing standards issued
     by the Comptroller General of the United States, as implemented by the
     Inspector General, DOD, and accordingly included such tests of management
     controls as we deemed necessary. We did not use computer-processed    data to
     perform this audit.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within the DOD and Lockheed-Martin, Lockheed Martin Missiles
     and Space Company, Incorporated, Sunnyvale, California. Further details are
     available upon request.



Management      Control Program Review

    Requirement for Management Control Reviews. DOD Directive 5010.38,
    “Management Control (MC) Program,” August 26, 1996, requires DOD
    managers to implement a comprehensive system of management controls that
    provides reasonable assurance that programs are operating as intended and to
    evaluate the adequacy of those controls.

    Scope of Review of the Management Control Program. We reviewed the
    management of contract waivers and deviations for Defense Systems.
    Specifically, we assessed whether procedures in Federal Acquisition Regulation,
    subpart 46.407 and Naval Sea Systems Command Operational Directive
    40825B, for reviewing, approving, and obtaining equitable consideration for
    major waivers and deviations were adequately and consistently applied. We
    also reviewed the implementation of management controls applicable to waivers
    and deviations.

    Adequacy of Management Controls. Management controls were adequate in
    that we did not identify any material systemic management control weakness
    applicable to our primary audit objective.




                                        11
Appendix B. Summary of Prior Coverage
   During the last 5 years the Office of the Inspector General, DOD, issued two
   reports on the management of waivers and deviations.

   Office of the Inspector General, DOD, Report No. 97-104, “Waivers and
   Deviations for the C-17 Aircraft,” March 6, 1997, states that the Air Force
   C-17 System Program Office generally managed contract waivers and deviations
   in an effective manner. However, the report states that the Air Force cannot
   readily and fully trace all airframe fracture-critical and landing-gear parts for
   which the contract required serial numbers on the first 27 C-17 aircraft
   delivered. As a result, Air Force maintenance burden and costs will increase
   because the Air Force lacks the means to readily identify some of the critical
   parts that are on its aircraft and lacks the necessary information on the origin
   and history of the parts. The report recommended that the Air Force develop
   time-phased milestones, by aircraft, as to when it will have complete traceablity
   information, serial numbers, and part tracking implemented for all airframe
   fracture-critical and landing-gear, life-limited parts. The Air Force concurred
   with the finding and the recommendation.

   Office of the Inspector General, DOD, Report No. 96-221, “The Avenger
   Forward-Looking Infra-Red System,” September 16, 1996, states that the
   Army Avenger Project Office accepted 325 deficient Avenger systems without
   requiring the prime contractor to later correct critical Forward-Looking     Infra-
   Red system operational performance deficiencies or to provide for an equitable
   contract cost reduction or other considerations for the Government waiving the
   Forward-Looking     Infra-Red system performance requirement.       As a result, the
   uncollected Forward-Looking     Infra-Red system target acquisition screen will be
   cluttered with interference.  Therefore, the operating crews have difficulty
   identifying an actual target, making the system less effective. The report
   recommended that the Army develop time-phased milestones to facilitate
   completion of the plan of action that the Weapons Systems Management
   Directorate proposed to correct the Avenger Forward-Looking        Infra-Red
   system’s operational performance anomalies for systems already accepted as
   well as systems under contract. The Army concurred with the finding and the
   recommendation.




                                         12
Appendix C. Incentive-Fee Clause Formula and
Application
Incentive-Fee Clause Formula. The Missile and Reentry Branches included in the
cost-plus-incentive-fee production contracts an incentive clause to facilitate dealing with
contract waivers and deviations.

                         Contract Waiver and Deviation Formula

                 Maximum        amount x (DHWDT-DHWDP)                     / (DHWDT)


               Formula   Definitions:

               Maximum     Amount       = The maximum     fee that the contractor    can earn under the clause.

               DHWDT      = delivered     hardware waiver and deviation     target

               DHWDP      = delivered     hardware waiver and deviation     performance

Application of Incentive-Fee Clause Formula. To apply the formula, the contracts
assign 10 points to each accepted category A waiver and deviation and 1 point to each
accepted category B waiver and deviation. The contract waiver and deviation target
equals the weighted value of the total points assigned to contract waivers and deviations
for the previous-year production contract. The contract waiver and deviation
performance figure is the total points assigned to waivers and deviations for the current
year. Mathematically, the contractor can earn an additional fee by having fewer waiver
and deviation points than shown in the target amount. If the contractor has no contract
waivers and deviations for the current year, the contractor earns the maximum fee.
Further, the contractor can actually earn a negative fee if the actual performance
exceeds the targeted amount. The contract limits the amount of negative fee (if any),
which the procuring contracting officer then offsets against other incentive fees earned.




                                                     13
Appendix D. Incentive Fees Earned for Waivers
and Deviations

                               Missile and Reentry Branch Contracts

                                                 (As of June 1998)




                                   No. of Waivers         Maximum        Incentive Fee   Incentive Fee
   Contract          Obligations   and Deviations        Incentive Fee      Earned         Unearned

N00030-84C-OlOO*   $609,612,964            267           $3,232,764      $1,974,630      $1,258,134
N00030-88C-0088      603,138,069            21               289,000         269,217          19,783
N00030-89C-0089      930,108,437            18               270,000         128,250         141,750
N00030-90C-0090      826,188,003            11               237,318          85,144         157,174
NOO030-91C-0091    1.094.737.296       6                     443.336         278,637         164,699
   Totals        $4,063,784,769            323           $4,472,418      $2,735,878      $1,741,540

*The Program Office could not provide a year-by-year breakdown of the number of
waivers and deviations approved and incentive fee earned on the FY 1984 multi-year
Trident II missile system development contract for fiscal years 1984 through 1987.




                                                    14
Appendix E. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Procurement
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department       of the Army
Auditor General, Department   of the Army


Department       of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Director, Strategic Systems Programs Office
Auditor General, Department of the Navy


Department       of the Air Force
Assistant Secretary of the Air Force (Financial Management    and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                            15
Appendix E. Report Distribution


Non-Defense        Federal Organizations            and Individuals
Office of Management and Budget
Technical Information Center, National Security and International    Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following       congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                               16
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
John E. Meling
Douglas P. Neville
Verne F Petz
Clara R Parker
Sonya M Mercurius
